               Securities and Exchange
                    Commission

              Office of Inspector General

      Semiannual Report to Congress

                              Executive Summary
During this reporting period (October 1, 1999 to March 31, 2000) the Office of Inspector
General (Office) issued ten audit reports. The audits focused on reviews of periodic reports;
data backup procedures; oversight of the Securities Investor Protection Corporation; investor
and small business town meetings; employee training; financial and administrative controls at
the Midwest Regional Office; telecommunications security; benchmarking of Commission
procedures; and a summary closing report for audits of computer systems for year 2000
compliance. The Audit Program section below describes these audits further.
Ten investigations were closed during the period. One case was referred to the Commission, one
case was referred to the Federal Bureau of Investigation for further investigation, and one case
was referred to the Federal Protective Service for further investigation. The subject of one
investigation was suspended, while the subject of another investigation took three days of leave
without pay pursuant to an alternative discipline agreement. In addition, one employee
resigned, and another employee’s period of employment ended prior to completion of the
investigation. One referral to Commission management remains pending.
A previous period audit of sensitive information found that additional controls could
significantly enhance the effectiveness of the system of controls. Management concurred with
our recommendation to strengthen the controls and established a task force to implement
corrective actions. Management has indicated that significant improvements have already been
made.
During this reporting period, the Office of Inspector General completed an audit of computer
systems for year 2000 compliance. Based on the audit results and the passing of the millennium
date, we are dropping this issue as a significant problem.
                                                                                       Page           2
Information resources management (IRM) continues to experience significant problems.
Specifically, systems development contracting and IRM planning remain problem areas. With
the completion of year 2000 compliance, Commission management has devoted more attention
to strengthening these areas. Management established a senior level information technology
committee to oversee information technology policies and investments two years ago. The Office
of Information Technology is implementing procedures for managing these policies and
investments, according to management.
Another previously reported significant problem involves controls over the collection of fees.
Although statutory changes have eliminated many of the fees most at risk and the Commission
has made many improvements in controls over the collection of filings fees, the overall control
structure remains inadequate. This condition will remain until a new fee system, which has been
in development for four years, is implemented.



                                             Audit Program
The Office issued ten audit reports during the reporting period. The reports contained a total of
41 recommendations, which are further described below. Management concurred with most of
the recommendations.


REVIEW OF PERIODIC REPORTS
AUDIT 298, FEBRUARY 23, 2000
Public companies registered with the Commission (“reporting issuers”) must file periodic reports
under the Exchange Act of 1934, which include annual (10-K) and quarterly (10-Q) reports.
These reports provide the securities markets with updated financial and operating information.
The Division of Corporation Finance’s (CF) goal is to review all reporting issuers at least once
every three years (one-third per year).

Our objective in this audit was to determine whether review coverage of reporting issuers
through the review of periodic reports was effective. During our audit, Division managers
indicated that they also considered reviews of repeat registration statements, certain post-
effective amendments and certain proxy statements in determining reporting issuer review
coverage. Consequently, we included these filings in our analysis.

The Division of Corporation Finance was reasonably effective in achieving its goal of reviewing
financial and operating information for one-third of reporting issuers each year. The
performance data reported in the Commission’s budget submissions did not fully reflect this
success, however, because they omitted significant aspects of CF’s review activities. For
example, initial public offering registrations were not included.


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                         AP R I L 2 8 , 2 0 0 0
                                                                                       Page           3
Also, CF used the number of annual reports filed to estimate the number of reporting issuers.
We recommended that CF instead use the list of registrants it provides on the SEC Internet site.
Our other recommendations to CF included: provide more information in its tracking and budget
reports related to its review goals; include a performance measure based on achieving its goals in
the performance plan required by the Government Performance and Results Act; develop review
goals related to filing monitors (a type of review); and provide separate performance data for
quarterly reports (10-Qs) and current reports (8-Ks) in the Commission budget.


DATA BACK-UP PROCEDURES                                                         AUDIT 299,
MARCH 31, 2000
The Office of Information Technology (OIT) oversees all information systems for the
Commission, participates in the investment review process for information systems, and
monitors and evaluates the performance of those information systems. As part of its handling of
information systems, OIT is responsible for the integrity of the Commission’s data back-up
procedures.

The Office of Inspector General tasked Tichenor & Associates, an independent CPA firm, to
evaluate the effectiveness of the data back-up procedures. Tichenor reviewed pertinent
documentation, observed relevant processes, tested back-up file restoration, and interviewed
Commission staff. It performed its audit work at the Commission’s headquarters, Operations
Center, and field offices.

Tichenor found that back-up activities were reasonably effective to minimize data loss. It also
found that that improvements were needed in the areas of: written policies and procedures for
back-up activities; training of back-up operators and their alternates; disaster recovery and
contingency planning; and security awareness training.




OVERSIGHT OF SECURITIES INVESTOR PROTECTION
CORPORATION                               AUDIT 301,
MARCH 31, 2000
The Securities Investor Protection Act of 1970 (the Act) created the Securities Investor
Protection Corporation (SIPC) to protect customers from losses resulting from broker-dealer
failure, thereby promoting investor confidence in the securities markets.
SIPC protects customers whose securities were misappropriated, never purchased, or stolen.
However, it has not covered sales practice claims against broker-dealers that do not involve
misappropriation or conversion (e.g., fraudulent sales practices, unsuitable investments, failure
to execute sell orders).
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                         AP R I L 2 8 , 2 0 0 0
                                                                                     Page           4
We evaluated the efficiency and effectiveness of the Commission’s oversight of SIPC, and
whether its oversight was in compliance with the Act. Overall, we found that the Commission’s
oversight was generally efficient and in compliance with the Act. We also found that the
Division of Market Regulation (MR) had a constructive working relationship with SIPC staff.
SIPC trustees and officials were generally complimentary of the Commission’s oversight efforts.
We recommended that MR obtain from SIPC a written statement describing the evidence
necessary and the standard of proof SIPC uses in initiating and acting on claims in SIPC
proceedings. We made several other recommendations, including delegating authority to the
Office of General Counsel to enter appearances in SIPC cases on a one-year pilot basis; deciding
on a review schedule and inspection scope for future SIPC inspections; and enhancing the
Commission’s internal communications regarding SIPC.


INVESTOR & SMALL BUSINESS TOWN MEETINGS
AUDIT 303, NOVEMBER 18, 1999
The Commission conducts town meetings for investors and small businesses. Since 1994, 32
investor and 13 small business town meetings have been held.
The Office of Investor Education and Assistance (OIEA) organizes investor town meetings. The
purpose of the meetings is to teach investors how to safely and confidently participate in the
securities markets. Another purpose is to identify investor concerns and problems.
The Division of Corporation Finance organizes the small business town meetings. These
meetings discuss the requirements involved when a small business raises capital through the sale
of securities. The meetings also let the Commission hear about the concerns and problems
facing small businesses.
We conducted an audit of compliance with the Commission’s town meeting guidelines. The
audit covered investor town meetings in Seattle, WA and Portland, OR, and a small business
town meeting in Kansas City, MO.
During the audit, no material instances of non-compliance with the Commission’s guidelines
came to our attention. Also, funds spent were reasonable and allowable, and individual firms or
investments products were not mentioned inappropriately.
At one investor meeting, a sponsor distributed business cards inappropriately, an unrelated
mutual fund company opened a booth nearby (which could confuse investors), and certain
educational materials were not approved in advance by OIEA. We made recommendations to
address these issues, with which OIEA concurred.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                       AP R I L 2 8 , 2 0 0 0
                                                                                      Page           5
EMPLOYEE TRAINING
AUDIT 305, MARCH 31, 2000
Commission training policy is set by the Associate Executive Director, Office of Administrative
and Personnel Management (OAPM), in consultation with the Office of the Executive Director.
Within OAPM, a Training Unit headed by the Training Officer administers the program. This
unit is a part of the Employee Relations and Development Branch.

We sought to determine whether the employee training program was meeting the Commission’s
training needs effectively, and in compliance with applicable statutes and regulations. We
interviewed Commission staff, reviewed available documentation, and conducted a survey of
employees, supervisors and managers, and administrative contacts. Our review was limited to
activities of the Training Unit, and did not include training conducted by the program offices.

We found that the Training Unit in the Office of Administrative and Personnel Management
(OAPM) had taken several steps to enhance employee training, and that a majority of
Commission staff we surveyed indicated that the training program was meeting their needs.
We recommended that management implement a process to improve training, with OAPM as the
facilitator. Several possible training improvements include better coordination of division-
sponsored training with OAPM approved training; increasing the use of technology to deliver
course content and disseminate information on training opportunities; ensuring that training is
aligned with organizational and Commission goals; allowing employees access to their
automated training records; and improved processing of training documentation.


MIDWEST REGIONAL OFFICE
AUDIT 307, OCTOBER 29, 1999
The Office of Inspector General conducted a limited audit of the financial and administrative
controls of the Midwest Regional Office (MRO). The audit procedures were limited to
interviewing MRO staff, reviewing supporting documentation, and conducting limited tests of
transactions. The objective of the audit was to determine whether the internal controls were
adequate, implemented economically and efficiently, and in compliance with Commission
policies and procedures.
The Midwest Regional Office in Chicago, Illinois, administers Commission programs in the
midwestern portion of the United States. In carrying out its responsibilities, the MRO exercises
a broad range of financial and administrative functions, including maintaining time and
attendance records; procuring supplies and services; arranging for staff travel; maintaining an
inventory of property; and recording budgeted and actual expenditures of the office.
During our limited audit, we identified one material issue. The Office of Administrative and
Personnel Management (OAPM) had not issued a contracting officer’s warrant to MRO’s
Associate Regional Director. Otherwise, our review indicated that the MRO’s controls were
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                        AP R I L 2 8 , 2 0 0 0
                                                                                           Page           6
generally adequate, implemented economically and efficiently, and in compliance with
Commission policies and procedures.


EDGAR HARDSHIP EXEMPTIONS
AUDIT 308, MARCH 30, 2000
The Commission’s temporary and continuing hardship exemption rules allow registrants
otherwise required to file electronically under the EDGAR system to file in paper under certain
conditions. The exemptions may be either temporary or continuing, depending on the
circumstances. The Divisions of Corporation Finance and Investment Management have
delegated authority to approve or deny requests for hardship exemptions.
We evaluated the Commission’s effectiveness in ensuring compliance with the hardship
exemption rules. We reviewed applicable regulations and procedures, interviewed Commission
staff, and reviewed a sample of filings submitted pursuant to the hardship exemptions.
We found that controls over the granting of continuing hardship exemptions generally appear
adequate. However, we recommended that controls to ensure submission of confirming copies
or resubmission of rejected filings be enhanced. We also recommended that the filing rules
require the exhibit indices in electronic filings to identify all paper exhibits, not just those subject
to hardship exemptions, to help investors to locate them.


TELECOMMUNICATIONS SECURITY
AUDIT 309, MARCH 31, 2000
The Office of Inspector General issued a task order to Deloitte & Touche, LLP, to evaluate the
effectiveness of security controls over the Commission’s telecommunications infrastructure.
The scope of the review included Commission headquarters and the Operations Center in
Alexandria, VA. The assessment included an evaluation of the Commission’s Private Branch
Exchange (PBX) and an automated and manual evaluation of all identified analog telephone
lines.
Deloitte & Touche found that many effective controls and procedures exist to assist in
safeguarding the PBX and analog telephone lines. It also made several recommendations to
strengthen security controls and procedures to ensure the integrity of the PBX and of internal
systems, including development of comprehensive telecommunications security policies and
baseline standards. The policies and standards would address strong authentication, access
control, security administration, auditing, and monitoring.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                             AP R I L 2 8 , 2 0 0 0
                                                                                        Page           7
BENCHMARKING COMMISSION PROCEDURES
AUDIT 310, MARCH 22, 2000
We conducted an audit to compare certain Commission procedures to federal agencies with
similar executive, legislative, and judicial responsibilities. Our objective was to identify possible
improvements to the Commission’s procedures based on best practices in the federal government
(benchmarking).
During the audit, we interviewed staff at selected Federal agencies (the Commodities Futures
Trading Commission, the Equal Employment Opportunity Commission, the Federal
Communications Commission, the Federal Deposit Insurance Corporation, the Federal Elections
Commission, the Federal Maritime Commission, the Federal Reserve Board, the Federal Trade
Commission, the International Trade Commission, and the National Labor Relations Board). We
also reviewed supporting documentation describing these federal agencies’ organizations and
procedures.
We found that in many cases the Commission’s procedures are similar to the other federal
agencies. In part, the similarities are due to the requirements of federal law (e.g., rulemaking
procedures are subject to the Administrative Procedures Act). In other cases, the procedural
differences between the Commission and the other federal agencies reflect deliberate policy
decisions by the Commission, or differences in mission. Accordingly, we did not make any
recommendations in this audit report.


YEAR 2000 AUDITS - SUMMARY CLOSING REPORT
AUDIT 312, DECEMBER 21, 1999
The Office of Inspector General (OIG) engaged the services of an independent certified
information systems auditor (CIS auditor) to assess the progress of the Commission in making its
automated systems year 2000 (Y2K) compliant. This audit was a continuation of audit work
begun by the OIG in fiscal year 1998. The OIG has issued several progress reports detailing the
progress to date and making recommendations to enhance the Commission’s efforts.

The CIS auditor performed agreed-upon procedures on the Commission’s Y2K certification
process and contingency planning for internal mission critical systems. In regards to these
issues, a Commission contractor indicated to Chairman Levitt on September 2, 1999, that the
SEC had completed Y2K renovation and validation of the Commission’s automated systems.
Also, an initial baseline set of contingency plans related to SEC mission critical systems had
been completed.

Since August 1999, the Commission had made progress in certifying its systems. The
judgmental sample of 53 mission critical systems used for this audit indicated that on August 28,
1999, only 7 systems were certified. As of October 22, 1999, 23 systems were certified, with 20
systems pending certification.

S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                          AP R I L 2 8 , 2 0 0 0
                                                                                       Page           8

For the short term (by the millennium date), the report recommended completing the certification
process, and completing and testing contingency plans. For the long term, OIT should build on
the accomplishments of the Y2K project, by implementing policies and procedures for
inventorying and certifying systems, change control, ownership of systems, and contingency
plans.



                                     Investigative Program
Ten investigations were closed during the period. One case was referred to the Commission, one
case was referred to the Federal Bureau of Investigation for further investigation, and one case
was referred to the Federal Protective Service for further investigation. The subject of one
investigation was suspended, while the subject of another investigation took three days of leave
without pay pursuant to an alternative discipline agreement. In addition, one employee resigned,
and another employee’s period of employment ended prior to completion of the investigation.
One referral to Commission management remains pending.
At the close of the period, seven investigations were pending. The pending investigations
included allegations of unauthorized disclosure, unauthorized use of assets, violation of post-
employment restrictions, failure to disclose, time and attendance abuse, favoritism and theft of
property. The most significant cases closed during the period are described below.


MISUSE OF COMPUTER RESOURCES
The Office developed evidence that a Commission employee had used the employee’s
government computer for a variety of personal purposes. These personal purposes included
visiting sexually suggestive adult websites on the Internet. The employee was suspended for
five days.
In another investigation involving the misuse of computer resources, we found evidence that a
Commission employee had used the government computer assigned to him to access Internet
websites containing adult pornography. The employee’s period of employment ended prior to
completion of the investigation and was not renewed.


CHILD PORNOGRAPHY
An employee had admitted that he visited websites containing child pornography from his
government computer. The employee resigned before administrative action was taken. We
referred the matter to the Federal Bureau of Investigation for further investigation.



S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                         AP R I L 2 8 , 2 0 0 0
                                                                                      Page           9
UNAUTHORIZED DISCLOSURE
The Office investigated an allegation that a nonpublic Commission document had been disclosed
without authorization to officials of a union that is seeking to represent Commission employees.
After investigating the allegation, we were unable to determine how the union had acquired this
document.


CONFLICT OF INTEREST
The Office investigated an allegation that a Commission staff member had an improper
relationship with a subject of a Commission investigation. It was also alleged that the
Commission staff member had provided information concerning the investigation to the subject.
The evidence failed to substantiate the allegations.


                                      Significant Problems
No new significant problems were identified during this period.



              Significant Problems Identified Previously

SENSITIVE INFORMATION
During a prior period, we conducted an audit survey of management’s controls for safeguarding
sensitive information. The survey found that these controls required strengthening to enhance
their effectiveness.
Management concurred and established a task force to implement corrective actions. According
to management, significant improvements have already been made. For example, management
has issued a policy to all employees on safeguarding sensitive nonpublic information and
implemented new building access procedures. Management also indicated that it is working
with a security consultant to make further improvements.
We intend to monitor the efforts to strengthen controls over sensitive information.


YEAR 2000
We completed an audit of the Commission’s efforts to make its systems year 2000 compliant
(see Audit No. 312 above). The scope of the audits included EDGAR and Commission internal
systems, as well as non-information technology.
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                        AP R I L 2 8 , 2 0 0 0
                                                                                         Page         10
Based on the results of our audit and the passing of the millennium date without incident, we are
dropping year 2000 compliance as a significant problem.

INFORMATION RESOURCES MANAGEMENT
Information resources management (IRM) remains a significant concern, particularly the areas of
contracting for systems development and information resources planning.

Now that year 2000 remediation has been completed, Commission management has devoted
more attention to strengthening these areas. Management has established a senior level
information technology committee to oversee information technology policies and investments
two years ago. OIT is implementing procedures for managing these policies and investments,
according to management.

COLLECTION OF FILING FEES
A prior audit of the collection of filing fees confirmed the Commission’s previous assessment
that the management controls were not in material conformance with accounting standards.
Although statutory changes have eliminated many of the fees most at risk and Commission
management has made significant progress in correcting the most serious weaknesses, some
corrective actions must await the implementation of a new computerized collection system.
Since 1996, the fee system has been in the process of being redesigned as part of EDGAR
modernization. A working group of managers and users is working with the contractors and
developers to ensure that the new fee system contains adequate financial controls and meets the
agency’s and filers’ requirements. Until these corrective actions are fully implemented, the
overall control structure will continue to fail to provide assurance that accountability over filing
fees is adequate.



                                     Access to Information
The Office of Inspector General has received access to all information required to carry out its
activities. No reports to the Chairman, concerning refusal of such information, were made
during the period.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                           AP R I L 2 8 , 2 0 0 0
                                                                                    Page         11

                                              Other Matters

EXECUTIVE COUNCIL ON INTEGRITY AND EFFICIENCY
The Office actively participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Inspector General attends ECIE meetings, is an active member of its
Financial Institutions Regulatory Committee, and serves as the ECIE member of the Integrity
Committee established by Executive Order No. 12993.
The Counsel and Associate Counsel to the Inspector General are active members of the PCIE
Council of Counsels. The Council considers legal issues relevant to the Inspector General
community.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                      AP R I L 2 8 , 2 0 0 0
                                                                                      Page         12




                                          Questioned Costs
                                                                             DOLLAR VALUE
                                                                            (IN THOUSANDS)

                                                                    UNSUPPORTED             QUESTIONED
                                                           NUMBER     COSTS                   COSTS
A          For which no management decision has
           been made by the commencement of the
           reporting period                                     0           0                          0

B          Which were issued during the reporting
           period
                                                            0           0                          0

           Subtotals (A+B)                                      0           0                          0

C          For which a management decision was                  0           0                          0
           made during the reporting period

    (i)    Dollar value of disallowed costs                     0           0                          0

    (ii)   Dollar value of costs not disallowed                 0       0                              0

D          For which no management decision has                 0       0                              0
           been made by the end of the period

           Reports for which no management                      0       0                              0
           decision was made within six months of
           issuance




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                        AP R I L 2 8 , 2 0 0 0
                                                                                    Page      13




    Recommendations That Funds Be Put To Better Use
                                                                       DOLLAR VALUE
                                                            NUMBER    (IN THOUSANDS)
A               For which no management decision has
                been made by the commencement of the
                                                                  0             0
                reporting period
B               Which were issued during the reporting
                period
                                                              0             0
                Subtotals (A+B)                                   0             0
C               For which a management decision was               0             0
                made during the period
      (i)       Dollar value of recommendations that were         0             0
                agreed to by management
            -   Based on proposed management action               0             0
            -   Based on proposed legislative action              0             0
      (ii)      Dollar value of recommendations that were         0             0
                not agreed to by management
D               For which no management decision has
                been made by the end of the reporting
                                                                  0             0
                period
                Reports for which no management decision
                was made within six months of issuance
                                                                  0             0




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   AP R I L 2 8 , 2 0 0 0
                                                                                    Page         14




                Reports with No Management Decisions
         Management decisions have been made on all audit reports issued before the beginning
         of this reporting period (October 1, 1999).



                          Revised Management Decisions
         No management decisions were revised during the period.



    Agreement with Significant Management Decisions
         The Office of Inspector General agrees with all significant management decisions
         regarding audit recommendations, including “Funds Put to Better Use” and “Questioned
         Costs.”




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                      AP R I L 2 8 , 2 0 0 0
